        DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Inspector General



                                                                                    Washington, D.C. 20201




                                       SEP 2 1 2009


TO:            Francis S. Collins, M.D., Ph.D.
               Director
               National Institutes of Healtb.......----2


FROM:
               Joseph E. Vengrin      0-----------
               Deputy Inspector General for Audit Services


SUBJECT:       National Institutes of Health-Internal Control Review of the Process for
               Awarding American Recovery and Reinvestment Act Funds (A-05-09-00064)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of2009, P.L. No. 111-5 (Recovery
Act), funds at the National Institutes of Health. This review was part of the Office ofInspector
General's assessment of whether the Department of Health and Human Services is using
Recovery Act funds in accordance with legal and administrative requirements and is meeting the
accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17,2009. The
Recovery Act includes measures to modernize our nation's infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President's direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Our objective was to assess the internal controls NIH has in place over the grants-award process
used to award Recovery Act funds and to determine whether the controls have been suitably
designed.

The internal controls for awarding Recovery Act funds to grantees, as described by management,
are suitably designed to provide reasonable assurance that the specified internal control
objectives would be achieved if the described internal controls were complied with satisfactorily
and applied as designed. However, we did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
Page 2 – Francis S. Collins, M.D., Ph.D.


effectiveness of any aspects of NIH’s internal controls for awarding Recovery Act funds,
individually or in the aggregate.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, the final report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me or your
staff may contact Lori S. Pilcher, Assistant Inspector for Grants, Internal Activities, and
Information Technology Audits at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
Please refer to report number A-05-09-00064 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



  NATIONAL INSTITUTES OF
HEALTH—INTERNAL CONTROL
 REVIEW OF THE PROCESS FOR
    AWARDING AMERICAN
RECOVERY AND REINVESTMENT
        ACT FUNDS




                    Daniel R. Levinson
                     Inspector General

                     September 2009
                      A-05-09-00064
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

   •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

   •   Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

   •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

   •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

   •   Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Institutes of Health Scientific Research

The Recovery Act provides $8.2 billion to the National Institutes of Health (NIH), Office of the
Director, to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, $7.4 billion is to be allocated proportionally to the NIH Institutes
and Centers and $800 million to the Office of the Director. In addition, the Recovery Act
provides $400 million for comparative effectiveness research and $300 million for shared
instrumentation. The Recovery Act funds will remain available for obligation until
September 30, 2010.




                                                  i
The NIH Recovery Act Web site indicated that while NIH has broad flexibility to invest in many
types of grant programs, it will follow the spirit of the Recovery Act by funding projects that will
stimulate the economy, will create or retain jobs, and have the potential for making scientific
progress within 2 years. NIH expects to:

   •   select recently peer-reviewed, highly meritorious research grant applications that can be
       accomplished in 2 years or less;

   •   fund new research applications;

   •   accelerate the tempo of ongoing science through targeted supplements to current grants;

   •   support new types of activities, such as the NIH Challenge Grant program, that meet the
       goals of the Recovery Act; and

   •   use other funding mechanisms as appropriate.

Research funds will be used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals. The application, review, and
award process is similar for grants supported under the Scientific Research, Comparative
Effectiveness Research, and Shared Instrumentation programs.

OBJECTIVE

Our objective was to assess the internal controls NIH has in place over the grants-award process
used to award Recovery Act funds and to determine whether the controls have been suitably
designed.

RESULTS OF REVIEW

The internal controls over the grants-award process used to award Recovery Act funds, as
described by NIH management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed. However, we did not perform procedures
to determine the operating effectiveness of these internal controls. Accordingly, we express no
opinion on the operating effectiveness of any aspect of NIH’s internal controls over the grants-
award process used to award Recovery Act funds, individually or in the aggregate.

This report is intended to provide a sufficient understanding of NIH’s grant process for awarding
Recovery Act funds to grantees as it pertains to internal control objectives in the following
internal control areas: authorization and approval; accuracy, completeness, and validity;
physical safeguards and security; error handling; and segregation of duties.




                                                 ii
                                                  TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              National Institutes of Health Scientific Research ...........................................1
              National Institutes of Health ...........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................3
               Objective .........................................................................................................3
               Scope...............................................................................................................3
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................4

          AUTHORIZATION AND APPROVAL....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy......4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used To Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy......................................................................5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................6
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy..........................6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place ....................7

          ACCURACY, COMPLETENESS AND VALIDITY................................................7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an
                Economical and Efficient Manner ...............................................................7
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used to Process and Approve Grant
                Applications and Related Transactions Are Efficient..................................7
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That the Agency Has Mechanisms in Place To Timely
                Award Grant and Contract Funds ................................................................8


                                                                    iii
         Internal Control Objective 4: Internal Controls Provide Reasonable
           Assurance That Only Those Grant Requests That Meet the Eligibility
           Requirements Are Approved .......................................................................8
         Internal Control Objective 5: Internal Controls Provide Reasonable
           Assurance That Grantee Records Are Periodically Substantiated
           and Evaluated...............................................................................................9

PHYSICAL SAFEGUARDS AND SECURITY........................................................9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy .................................................................9
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded
       From Unauthorized Access or Use ..............................................................9

ERROR HANDLING ...............................................................................................10
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the National Institutes of Health Accurately and
      Promptly Classifies, Summarizes, and Reports Adjustments to Grant
      Application Information and Records........................................................10

SEGREGATION OF DUTIES .................................................................................10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual To Both Cause and
       Conceal Errors Are Reduced .....................................................................10




                                                        iv
                                                INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

       •   Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

       •   Recovery Act funds are transparent to the public, and the public benefits of these funds are
           reported clearly, accurately, and in a timely manner.

       •   Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

       •   Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

       •   Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

National Institutes of Health Scientific Research

The Recovery Act provides $8.2 billion to the National Institutes of Health (NIH), Office of the
Director, to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, $7.4 billion is to be allocated proportionally to the NIH Institutes
and Centers and $800 million to the Office of the Director. In addition, the Recovery Act

1
    http://www.hhs.gov/recovery/reports/index.html, accessed June 25, 2009.


                                                          1
provides $400 million for comparative effectiveness research and $300 million for shared
instrumentation. The Recovery Act funds will remain available for obligation until
September 30, 2010.

The NIH Recovery Act Web site stated that while the NIH has broad flexibility to invest in many
types of grant programs, it will follow the spirit of the Recovery Act by funding projects that will
stimulate the economy, will create or retain jobs, and have the potential for making scientific
progress within 2 years. NIH expects to:

    •    select recently peer-reviewed, highly meritorious research grant applications that can be
         accomplished in 2 years or less;

    •    fund new research applications;

    •    accelerate the tempo of ongoing science through targeted supplements to current grants;

    •    support new types of activities, such as the NIH Challenge Grant program, 2 that meet the
         goals of the Recovery Act; and

    •    use other funding mechanisms as appropriate.

Research funds will be used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals. The application, review, and
award process is similar for grants supported under the Scientific Research, Comparative
Effectiveness Research, and Shared Instrumentation programs.

National Institutes of Health

NIH is the steward of medical and behavioral research for the nation. Its mission is science in
pursuit of fundamental knowledge about the nature and behavior of living systems and the
application of that knowledge to extend healthy life and reduce the burdens of illness and
disability. Research supported through the issuance of grants and cooperative agreements
enables NIH to fulfill its mission. The NIH organization includes Institutes and Centers, each
with its own mission and functions, separate appropriations, and statutory authorities.

Office of Policy for Extramural Research Administration

The NIH Office of Policy for Extramural Research Administration provides guidance relating to
the laws, regulations, and policies pertinent to the administration of NIH grants. The Institutes
and Centers are expected to comply with these grant requirements and, because of research
specifications, may implement additional requirements.

2
 Challenge grants address specific scientific and health research challenges, as defined by NIH, in biomedical and
behavioral research that will benefit from a significant 2-year jump start to funding.


                                                       2
The NIH “Grants Narrative Process Cycle Memorandum” states that NIH is to make awards to
organizations that are competently managed, responsible, and committed to achieving the
objectives of awarded grants. Grants management officials, including staff from the Office of
Policy for Extramural Research Administration, are responsible for recognizing at-risk (high-
risk) organizations, determining the appropriateness of issuing awards to such organizations, and
safeguarding grant funds made to these grantees by instituting special award conditions, as
appropriate.

Grants and Cooperative Agreements

NIH grants and cooperative agreements are awarded as discretionary grants. NIH has the
authority to determine the recipient of the grant and/or cooperative agreement and the amount
awarded. NIH programs are legislatively authorized by Congress, which also defines, for
example, their purpose and policy, authorization of appropriations, allotment of funds, and
limitation on assistance.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls NIH has in place over the grants-award process
used to award Recovery Act funds and to determine whether the controls have been suitably
designed.

Scope

We assessed NIH’s internal controls over the grants award process used to award Recovery Act
funds for scientific research, shared instrumentation, and comparative effectiveness research.
Our assessment was limited to determining whether existing internal controls adequately
achieved the internal control objectives for: (1) authorization; (2) accuracy, completeness, and
validity; (3) physical safeguards and security; (4) error handling; and (5) segregation of duties.
We performed fieldwork at NIH offices in Bethesda, Maryland, from May through July 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of NIH’s internal control environment, we:

   •    reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by the Office of Management and Budget, that NIH must follow for awarding grants;

   •    reviewed NIH’s organizational structure, including segregations of functional
        responsibilities, policy statements, operating manuals, and personnel policies;




                                               3
   •   interviewed NIH management as well as operations, administrative, and other personnel
       responsible for developing, assuring adherence to, and applying internal controls; and

   •   reviewed the grant-award process for three grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                     RESULTS OF REVIEW

The internal controls over the grant-award process used to award Recovery Act funds, as
described by NIH management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed. However, we did not perform procedures
to determine the operating effectiveness of these internal controls. Accordingly, we express no
opinion on the operating effectiveness of any aspect of NIH’s internal controls over the grant-
award process used to award Recovery Act funds, individually or in the aggregate.

This report provides a sufficient understanding of NIH’s grant process for awarding Recovery
Act funds to grantees as it pertains to internal control objectives in the following internal control
areas:

   •   authorization and approval;

   •   accuracy, completeness, and validity;

   •   physical safeguards and security;

   •   error handling; and

   •   segregation of duties.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

   •   NIH’s policy is to look for grant proposals of high scientific caliber that are relevant to
       public health needs and are within NIH Institutes’ and Centers’ priorities. Each type of
       NIH grant program has its own set of eligibility requirements. Applicants can find
       eligibility information in section III of each funding opportunity announcement (FOA).
       Eligibility requirements are primarily based on the experience of the applicant.

                                                4
    •    NIH believes it evaluates grant applications by a process that is fair, equitable, timely,
         and bias-free. The NIH dual peer review system 3 is mandated by statute (section 492 of
         the Public Health Service Act) and Federal regulations (42 CFR part 52h).

    •    NIH policy is to include the NIH Grants Policy Statement in all Notice of Awards as a
         term and condition of the award. The NIH Grants Policy Statement provides that NIH
         grant awards are for the reimbursement of actual and allowable costs incurred and are
         subject to Federal cost principles. The cost principles are set forth in OMB Circulars
         A-21, A-87, and A-122; 45 CFR § 74 Appendix E; and 48 CFR § 31.2 and incorporated
         by reference in 45 CFR §§ 74.27 and 92.22. The cost principles address four tests to
         determine the allowability of costs: reasonableness, allocability, consistency, and
         conformance. The NIH Grants Policy Statement also includes administrative and other
         remedies the Federal Government may use if a grantee does not comply with
         requirements.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

    •    OMB implementation guidance for the Recovery Act requires Federal agencies to
         provide information on the funding notifications made for all award types on
         Recovery.gov with a link to the agency’s Web site. The funding notifications stem from
         public announcements on the amount of funds available to entities outside of the Federal
         Government. The notifications include funds available immediately through formula or
         block grants, through the solicitation of applications or proposals for award in the future,
         or through any other public notification. Grants, contracts, loans, loan guarantees,
         cooperative agreements, and other forms of assistance are all subject to this reporting
         requirement.

    •    NIH requires each Institute and Center to post the grant eligibility requirements and
         research objectives on its own Web site and Grants.gov using a FOA. Each Web site is
         linked to Recovery.gov. FOAs are a new requirement and result in the submission of
         grant applications through Grants.gov. FOAs are requests for applications and are issued
         to invite grant applications in a well-defined scientific area and stimulate activity in the
         NIH Institutes’ or Centers’ programmatic priority areas.

    •    NIH policy is to make new grantees aware of financial management system requirements
         through the Welcome Wagon Letter posted on the NIH Office of Extramural Research
         Web site, through NIH education and outreach activities, and as part of the award
         negotiation, if applicable. The Welcome Wagon Letter informs grantees that they must
         follow the procedures authorized in accordance with laws, regulations, policies, and


3
 The dual peer review system used by NIH has two levels of review. The first level, the initial peer review, provides
a judgment of scientific merit. The second level assesses the quality of the initial peer review, sets program
priorities, and makes funding recommendations.


                                                       5
        Facilities & Administrative rate negotiations. Facilities & Administrative rate
        negotiation information is provided on the NIH Office of Extramural Research Web site.

    •   The NIH Office of Extramural Research Web site provides a multitude of resource
        materials that educate grantees about the cost principles and other applicable regulations
        and policies governing the administration of grants. NIH staff also provide policy
        interpretation and consultation to the grantee community.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

    •   NIH’s policy is to evaluate grant applications in a fair, equitable, timely, and bias-free
        manner. The NIH dual peer review system is mandated by statute (section 492 of the
        Public Health Service Act) and Federal regulations (42 CFR part 52h).

    •   As required, applications are processed through two levels of review and assigned a
        numerical ranking. The initial peer review 4 assesses each application’s scientific and
        technical merit. Using established criteria, the initial peer review group prepares an
        evaluation and gives the application a score (or ranking). The second level of review is
        performed by the advisory council of the potential awarding Institute or Center. The
        advisory council approves grant applications that meet the Institute’s or Center’s goals,
        ranks the applications from the most meritorious to the least, and recommends a funding
        amount. The results of the initial peer review and the advisory council review are
        recorded in the NIH IMPAC II system. 5

    •   Before awarding a grant, NIH requires Grants Management staff to use a checklist to
        ensure that administrative requirements have been addressed, including whether the grant
        was funded in rank order. For all new and competing continuation awards, Congress
        must be alerted at least 72 hours before the grant is awarded. The Grants Management
        Specialist, an NIH employee, approves the Notice of Grant Award, which is sent to the
        grantee.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance With Laws, Regulations, Recovery Act Guidance, and Agency Policy

    •    NIH requires grantees to meet the standards and requirements for financial management
         systems set forth or referenced in 45 CFR §§ 74.21 or 92.20, as applicable.

4
Depending on the grant assignment, initial peer review meetings are administered by either the Center for Scientific
Review or an individual NIH Institute or Center.
5
 Information for Management, Planning, Analysis, and Coordination (IMPAC) is a computer database system
developed and maintained by the Office of Extramural Research for information concerning extramural programs.
IMPAC II is the successor to NIH’s original IMPAC information management system.


                                                       6
       Requirements for grantees’ financial and administrative systems are included in the NIH
       Grants Policy Statement and posted on the Grants Management Infonet as a resource for
       Grants Management staff.

   •   NIH may impose corrective actions and/or include special conditions on awards or
       suspend, terminate, or withhold support. Questionnaires are posted on the Grants
       Management Infonet as a resource for Grants Management staff to use when evaluating
       the grantee’s financial and administrative systems.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

   •   The Authorized Organization Representative’s signature on the grant application is to
       ensure that the applicant organization will be accountable both for the appropriate use of
       funds awarded and for the performance of the grant-supported project or other activities
       resulting from the application. The Authorized Organization Representative is also
       responsible to NIH for ensuring that the organization complies with the terms and
       conditions of individual awards and organization-wide requirements, such as those
       concerning financial management and property management.

   •   A grantee acknowledges and accepts an NIH award and its associated terms and
       conditions by drawing down or requesting funds made by the Notice of Award. Once the
       award is accepted by the grantee, the terms and conditions of the Notice of Award are
       binding.

ACCURACY, COMPLETENESS AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

   •   NIH requires that advisory councils review applications not only for appropriate initial
       peer review recommendations but also for relevance to the Institutes’ or Centers’
       programs, priorities, and funding. The advisory council may concur with the results of
       the initial peer review and approve the grant award or return the grant application to the
       initial peer review group for further review.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used to Process and Approve Grant Applications and Related Transactions
Are Efficient

   •   NIH is replacing paper grant applications with electronic applications and has begun the
       transition for requiring electronic submission of grant applications through Grants.gov.




                                              7
    •   NIH requires that submitted applications undergo checks at Grants.gov and at NIH. The
        Grants.gov checks ensure that no viruses are attached to the application and the DUNS
        number is correct. 6 At NIH, the application is checked against an application evaluation
        checklist. If there are no errors, NIH assembles the entire application in the NIH eRA
        Commons.

    •   NIH provides the submitting organization’s business official (the signing official) and the
        principal investigator 2 days to view the application before it goes to the Division of
        Receipt and Referral for processing.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place To Timely Award Grant and Contract Funds

    •    NIH intends to use some of its Recovery Act funds for grant applications that were
         approved in fiscal year 2008 but not funded. Recovery Act grants must be awarded in
         short timeframes and obligated within 2 years. NIH officials told us it will allocate
         additional staff as needed to address the increased number of grant applications.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

    •    NIH policy requires that grants management staff review the HHS National External
         Audit Resources alert listing and the General Services Administration Listing of Parties
         Excluded From Federal Procurement and Non-Procurement Programs before issuing a
         grant.

    •    NIH policy requires the Grants Management Officer to certify that all applicable
         requirements for an independent, competitive review have been carried out before
         funding the grant application.

    •    Before awarding the grant, NIH requires its Grants Management staff to review the
         application for indication of inadequate administrative systems in the applicant and to
         ensure that applications have been approved. When necessary, particularly for new
         organizations, grants management staff will request and review grantee administrative
         policies and financial statements.




6
 Date Universal Numbering System (DUNS) is a unique nine-digit number assigned by Dun and Bradstreet
Information Services. It is the universal standard for identifying and keeping track of more than 92 million
businesses worldwide. Grants.gov requires a DUNS number for registration. For applicants, the DUNS number in
the application must match the DUNS number in the Institutional Profile in the Electronic Research Administration
(eRA) Commons. The eRA Commons is a secure meeting place on the Web where research organizations and
grantees electronically receive and transmit information about the administration of biomedical and behavioral
research grants. The eRA Commons allows applicants to access the status of their applications; grantees can access
the status of their awards, submit reports, and make requests electronically.


                                                      8
Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

   •   Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
       $500,000 in a fiscal year are required to obtain audits of their organization’s operations
       annually from private accounting firms. Additionally, NIH conducts technical site visits
       and educational outreach seminars to educate staff and to enhance administrative
       oversight of sponsored research.

   •   NIH Grants Management Officers and Program Officials use reports, correspondence
       from the grantee, audit reports, site visits, and other available information to monitor cost
       and performance results, identify potential problems, and identify areas where technical
       assistance or enforcement action may be necessary.

   •   The Office of Management Assessment reviews allegations concerning misspending of
       NIH grant funds and reports its findings to NIH management officials, including those in
       the Office of Extramural Research. Office of Management Assessment reports usually
       contain an assessment of internal controls in effect at the grantee organization, with
       recommendations for system improvements.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

   •   NIH maintains an agency-wide security program to safeguard and secure access to
       records. The NIH Fiscal Year 2008 Improper Payments Information Act Risk
       Assessment (risk assessment) noted that security policies were updated to align with new
       OMB, National Institute of Standards and Technology, and HHS policies and guidance.
       The risk assessment also noted that the Enterprise Master Information Technology
       Security Plan, which implements relevant Federal laws, regulations, and policies, was
       recently revised. Finally, the risk assessment noted that the information technology
       security language for contracts and acquisitions compliance with the Federal Information
       Security Management Act (FISMA) and contractor security oversight was also revised.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

   •   NIH officials told us NIH has actively addressed security issues by providing frequent
       training to staff. NIH has worked with HHS to develop role-based training for personnel
       with significant security responsibilities to comply with OMB requirements. NIH also
       recently updated its security awareness course, which is an annual requirement for all
       personnel who use information systems.




                                               9
   •   NIH has a number of internal controls in place to ensure the safeguarding and security of
       data. NIH maintains an offsite server to provide backup and recovery of data. It
       implemented an automated Web-based application called the NIH Certification and
       Accreditation Tool that it uses for managing and tracking the inventory of information
       systems. The certification and accreditation is performed for 100 percent of FISMA
       systems, including systems that are critical infrastructure. Certification and accreditation
       ensures that safeguards are implemented effectively and commensurate with risks. NIH
       also implemented the HHS Security & Privacy Online Reporting Tool for tracking
       FISMA information.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
National Institutes of Health Accurately and Promptly Classifies, Summarizes, and Reports
Adjustments to Grant Application Information and Records

   •   NIH allows applicants the opportunity to correct errors identified during the application
       process and resubmit the corrected information through Grants.gov within a specified
       timeframe.

   •   When NIH identifies an error, its policy is for the application process to immediately
       stop. The applicant is either notified of the error or given a warning. A warning alerts
       the applicant to the less-than-ideal condition. Correcting the error allows the application
       to proceed.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual To Both Cause and Conceal Errors Are Reduced

   •   Scientific Review Administrators provide both the scientific review experience and
       scientific expertise for the competitive review process.

   •   Grants Management Officers serve as the reception and distribution point for prior
       approval requests, progress reports, and other reports required by the terms and
       conditions of the Notice of Grant Award.

   •   Program officials establish or participate in the establishment of goals for new programs
       and plans of action for implementation.

   •   Program officials are required by NIH to evaluate the submissions for appropriateness to
       solicitation topics, and the Grants Management Officer determines compliance with
       policy, regulations, and guidelines.




                                              10
